Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
Learn About
Us
Meet
OIG Senior Staff
Report
Fraud
Apply
for a Job
Visit
our Library
FAQs
Contact
Us
Fugitive
Felon Program
Links
of Interest
Site
Map
Español
OIG Home
Audit
Report - A-13-97-92001
Office of
Audit
Review of Administratively Uncontrollable Overtime
- A-13-97-92001 - 1/31/97
Ronald E. Brooks
Acting Deputy Commissioner for Human Resources
Assistant Inspector General for Audit
Review of Administratively Uncontrollable Overtime
This report presents the results of our audit of the use of administratively
uncontrollable overtime (AUO) pay at the Social Security Administration
(SSA). We determined that SSAs use of AUO was minimal since
only two employees were receiving AUO for a short period of time
in 1996. The amount of the AUO pay was to be approximately $10,523.
We found that SSA had properly determined that the employees were
eligible for AUO payments in accordance with Federal regulations.
However, in calculating the AUO payment amount, we found that the
two employees were underpaid. We recommended that SSA work to correct
these underpayments. The SSA agreed with our recommendation and informed
us that the AUO payments have been corrected and processed for payment.
BACKGROUND
Section 650 of the Treasury, Postal Service, and General Government
Appropriations Act of 1997, (as contained in section 101(f) of Public
Law 104-208, the Omnibus Consolidated Appropriations Act of 1997),
requires the Inspector General (IG) of any agency that pays annual
premium pay for AUO work to conduct an audit of the use of AUO pay
at the agency and report its findings and conclusions to the Office
of Personnel Management, the Governmental Affairs Committee of the
Senate, and the Government Reform and Oversight Committee of the
U.S. House of Representatives.
Section 5 of the Code of Federal Regulations (CFR) chapter 1 section
550.151, allows an agency to pay AUO to an employee in a position
in which the hours of duty cannot be controlled administratively
and which requires substantial amounts of irregular or occasional
overtime work. A typical example of a position which meets this requirement
is that of an investigator of criminal activities whose hours of
duty are dictated by the individuals under investigation.
An agency may pay AUO at a percent of the employee`s rate of
basic pay (including geographic adjustment). A position which requires
an average of over 9 hours a week of irregular or occasional overtime
work is allowed to receive 25 percent AUO.
SSA follows the requirements of the CFR to determine AUO eligibility.
According to SSA personnel, AUO has been used infrequently; therefore,
SSA has not developed its own written policies and procedures specifically
for AUO.
During the period under review, SSA continued to use the Department
of Health and Human Services (HHS) payroll system. Until SSA has
implemented its own payroll system, payroll information is coordinated
through both agencies to process the SSA employee payroll.
SCOPE
Our audit was performed in accordance with generally accepted government
auditing standards. The objective of our audit was to examine policies,
extent, cost, and other relevant aspects of the use of AUO pay at
SSA in 1996. In addition, the audit included a determination as to
whether agency eligibility criteria and AUO payments complied with
Federal laws and regulations. To achieve our objective, we examined
Federal regulations, reviewed payroll and personnel records, interviewed
key personnel, and analyzed payroll data. We reviewed those internal
control procedures necessary to meet our audit objectives.
RESULTS OF AUDIT
We were informed by SSAs Office of Personnel, that two SSA
employees received AUO pay in 1996. Our review disclosed that SSA
was in compliance with Federal regulations in determining that two
individuals were eligible to receive AUO payments. However, due to
systems limitations, SSA was working to resolve problems with incorrect
payment amounts for the two individuals.
Compliance
SSAs Office of Personnel, advised us that two employees received
AUO for six pay periods in 1996 (August 4, 1996 through October 26,
1996). The employees were classified as GS-1810, General Investigator
series, in the Office of the Inspector General. Our review of the
CFR indicated that GS-1810, General Investigators were eligible to
receive AUO payments at the 25 percent level. The AUO was approved
by the IG.
We examined the timesheets and found that the AUO time was certified
by a supervisor. The timesheets also showed that the employees worked
an average of over 9 hours a week overtime as required by the CFR.
Discussions with the employees and their supervisor revealed that
their work involved investigations of criminal activities.
Extent of AUO Payments Paid by SSA
Since HHS was responsible for maintaining SSAs payroll system
during the period under review, we attempted to verify the number
of SSA employees who received AUO pay through HHS historical
data base. The HHS historical data base showed that only one HHS
employee within the entire department was receiving AUO payments.
The data base did not report the two SSA employees because HHSs
system was not programmed to identify AUO for general investigators.
Accuracy of AUO Payments
According to SSAs Office of Personnel the HHS system was originally
programmed to make AUO payments to Criminal Investigators (GS-1811
series), but not to General Investigators (GS-1810 series). We found
no instances where criminal investigators were paid AUO. Criminal
investigators currently eligible for availability pay and are not
eligible for AUO.
Based on the AUO pay rate, we calculated that the two employees
were scheduled to receive $10,523 in AUO pay. We determined that
the payments of AUO to the two employees were less than they should
have been. At the conclusion of our review, SSA was working with
HHS on making the necessary corrections to ensure the affected employees
were correctly paid.
RECOMMENDATION
OIG RECOMMENDATION
We recommended that SSA continue to work with HHS to make the necessary
corrections to ensure the affected employees are correctly paid AUO.
SSA RESPONSE
SSA contacted HHS and was advised that HHS processed the AUO adjusted
payments.
Pamela J. Gardiner
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified